HHS/OIG-Audit--"Review of Two Selected Eligibility Requirements for New York State Title IV-E Foster Care Claims for New York City, (A-02-97-02002)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Two Selected Eligibility Requirements for New York State Title IV-E Foster Care Claims for New York City," (A-02-97-02002)
February 24, 2000
Complete
Text of Report is available in PDF format (3.5 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report estimates, based on a statistical sample, that New York claimed approximately $81.5 million ($40.7 Federal
share) for foster care claims that did not meet requirements for Federal Financial Participation. In 9 cases the claims
did not meet physical removal requirements (the requirement that the child be physically removed from their prior home
within 6 months of court proceedings), and in 108 cases the State was unable to establish that the children were living
in approved foster care homes. We referred our projected overpayments to the Administration for Children and Families for
their review and determination of an appropriate resolution. We also recommended that the State and City develop and implement
a comprehensive corrective action plan which ensures compliance with the physical removal eligibility requirement and more
importantly, takes immediate and effective corrective action to ensure that foster care children are only placed in approved
homes.